                    LIATIONAL SCIENCE FOUNDATION
                       WASHINGTON, D.C. 20550




    Office of
Inspector General



MEMORANDUM
    DATE: January 10, 1994
    FROM :
     VIA:
                                                                      1
                                                                      1
                                                                      !

 SUBJECT:    Threats to NSF ~m~l\elee

       TO:   Case No. I93080030

On July 26, 1993, we were notified by                     of NSF1s
Division of Administrative Services                       loyee had
received threatening notes at work.                       , of the
Division of                     ,                          reported
receiving two separate death threats via NSF inter-office
two threats were received on July 6 and July 21, 1993.
believed that the threats were related to the criminal
                                               roken in& his house
                                               was cooperating with
                                                rosecution of these
                                                                      j

                                                                      ,!

                                  eledPrllPrnl
DAS referred the threats to th             ective Service (FPS).
According to FPS Special Agent              FPS would attempt to      'I

retrieve fingerprints from the         en elopes used to deliver
the threats. However, FPS later decided not to do so.
No other threats or related communications
July, 1993, and all of the defendants in the                case
have been convicted a        ced to                        reats
have stopped and Mr.         no longer feels endangered, further
investigation is ?ot          at this time.
This case is closed.
